NO.:

IN THE

SUPREME COURT OF THE UNITED STATES

CHRISTOPHER RONDEAU - Petitioner;
v.
STATE OF INDIANA - Respondent;

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES SUPREME COURT

APPENDIX OF PETITIONER

Attorney for Petitioner:
Christopher Rondeau
DOC# 198058
Pendleton Correctional Facility
4490 W, Reformatory Road
Pendleton, Indiana. 46064-9001
Petitioner / pro se

Page | 1

f

INDEX OF APPENDIX
Appendix A - Decision of Indiana Court of Appeals
Appendix B - Decision of the State trial court
Appendix C - Decision of the Indiana Supreme Court denying review
Appendix D - Order of the Indiana Court of Appeals denying rehearing
Appendix E - Order of the Indiana Court of Appeals denying permission to file a
successive Petition for Post-Conviction Reelief

Page | 2

%

DocjiSign Envelope ID: D4056CF9-7C5A-445B-8302-63846E81A86B

Ar

MEMORANDUM DECISION
Pursuant to Ind. Appellate Rule 65(D), this
Memorandum Decision shall not be
regarded as precedent or cited before any
court except for the purpose of establishing
the defense of res judicata, collateral
estoppel, or the law of the case.

FILED
Dec 19 2019, 7:32 am

CLERK

Indiana Supreme Court
Court of Appeals .
^ and Tax Court ^

Appellant Pro Se

Attorneys for Appellee

Christopher Rondeau
Pendleton, Indiana

Curtis T. Hill, Jr.
Attorney General of Indiana
Matthew B. MacKenzie
Deputy Attorney General
Indianapolis, Indiana

IN THE

COURT OF APPEALS OF INDIANA
Christopher Rondeau,

December 19, 2019

Appellant-Petitioner,

Court of Appeals Case No.
19A-CR-299

v.

State of Indiana,
Appellee-Respondent.

Appeal from the Marion Superior
Court
The Honorable Kurt Eisgruber,
Judge
Trial Court Cause No.
49G01-0904-PC-38670

Friedlander, Senior Judge.

Court of Appeals of Indiana | Memorandum Decision 19A-CR-299 | December 19, 2019

Page 1 of 10

3

Qoc'uSign Envelope ID: D4056CF9-7C5A-445B-8302-63846E81A86B

[i]

Christopher Rondeau, pro se, appeals the denial of his motion to dismiss, which
he filed after his conviction of murder, a felony, and following a direct appeal, a
post-conviction proceeding, a post-conviction appeal, a petition for writ of
habeas corpus, and the denial of his successive petition for post-conviction
relief. The sole issue he raises on appeal, restated, is whether the trial court
abused its discretion when it denied his motion to dismiss, which alleged that
the trial court lacked subject matter jurisdiction over his murder trial. Because
we conclude that Rondeau’s motion to dismiss amounted to an improperly filed
successive petition for post-conviction relief, we remand to the Marion Superior
Court with instructions to dismiss Rondeau’s motion.

[2]

The facts and procedural history of this case—partially taken from this court’s
memorandum decision issued in Rondeau’s appeal of the denial of his writ of
habeas corpus—are as follows:
Rondeau was convicted of murder and sentenced in June 2010 to
fifty-five years in the Indiana Department of Correction.
Rondeau filed a direct appeal, and this court affirmed his
conviction by memorandum decision. Rondeau v. State, No.
49A02-1006-CR-694, 2011 WL 977075 (Ind. Ct. App. Mar. 21,
2011), trans. denied. The Rondeau decision reveals that, in April
2009, Rondeau, then thirty-nine years old, lived with his
grandmother (“Grandmother”), age seventy-seven, and her
brother-in-law, Adolf Stegbauer (“Adolf’), age sixty-nine. On
April 9, a sword fight erupted between Rondeau and Adolf.
Grandmother intervened and was stabbed, and “Adolf was
stabbed at least ten times, suffering injuries to his hand, arm,
abdomen, head, heel, foot, and shoulder.” Id. at *1. Rondeau
called 911, and all three were transported to the hospital.
Grandmother suffered a massive hemorrhage and died shortly
Court of Appeals of Indiana | Memorandum Decision 19A-CR-299 | December 19, 2019

Page 2 of 10

4

DpciiSign Envelope ID: D4056CF9-7C5A-445B-8302-63846E81A86B

after arriving at the hospital. Rondeau spoke to police at the
hospital, describing the sword fight involving him, Grandmother,
and Adolf. Adolf died four days later, and “The cause of death
was sharp force injury to the abdomen that caused bacteria in his
stomach to be released into his peritoneal and abdominal cavities
and led to septic shock.” Id. at *2. The State charged Rondeau
with Adolfs murder and Class C felony reckless homicide
relating to Grandmother’s death. The jury found Rondeau guilty
of Adolfs murder and not guilty of reckless homicide in the
death of Grandmother, and the sentencing court imposed a
sentence of fifty-five years. Id.
Rondeau’s direct appeal alleged errors with regard to trial court
discovery rulings, the admission of evidence at trial, and the
sufficiency of evidence to support his murder conviction. In
finding that the evidence was sufficient and that there was no
error in the jury rejecting his self-defense claim, the Rondeau court
referred to specific physical evidence about Adolf, including that
he was sixty-nine years old, he weighed 169 pounds, comparing
it to Rondeau who weighed 250, and Adolf had a BAC of .252
due to the fact that he had been drinking all day. The court also
stated that the evidence showed that Adolf suffered “at least ten”
stab wounds. Id. at *9. The Rondeau court affirmed his
conviction. Rondeau filed a petition for post-conviction relief
[on October 12, 2011], and, following a hearing, the post­
conviction court denied his petition [on April 30, 2015].
Thereafter, this court affirmed the post-conviction court’s denial
of his petition. Rondeau v. State, 48 N.E.3d 907 (Ind. Ct. App.
2016), trans. denied.
Rondeau v. Zatecky, No. 48A02-1709-MI-2348, slip op. at 1 (Ind. Ct. App. June
26, 2018), trans. denied.
After the Indiana Supreme Court denied transfer [on March 17,
2016], Rondeau filed a petition for a writ of habeas corpus in the
United States District Court for the Southern District of Indiana,
Court of Appeals of Indiana | Memorandum Decision 19A-CR-299 | December 19, 2019

Page 3 of 10

b

DoctiSign Envelope ID: D4056CF9-7C5A-445B-8302-63846E81A86B

raising nine issues, including ineffective assistance of trial and
appellate counsel, insufficient evidence, denial of his right to a
speedy trial, jury instruction error, and violation of his rights
when a computer was seized during a search. Rondeau v. Zatecky,
No. 1:16-cv-762-WTL-DKL, 2016 WL 4088720 (S.D. Ind.
Aug. 2, 2016). The District Court denied his petition for writ of
habeas corpus, finding that “[e]ach of Rondeau’s habeas claims .
. . is barred from consideration here because of Rondeau’s
unexcused procedural default consisting of his failure to fully and
fairly present them [to] the Indiana Supreme Court.” Id. at *3.
Rondeau, No. 48A02-1709-MI-2348, slip op. at 1 n.l.
[3]

On July 6, 2017, Rondeau filed in the post-conviction court a Motion to Vacate
Void Judgment and to Dismiss for Lack of Subject Matter Jurisdiction
(“Motion to Vacate Void Judgment”). He alleged in his motion that the trial
court lacked subject matter jurisdiction over his murder trial “due to the fact
that ‘Adolf Stegbauer’ was a German citizen that died in Germany” prior to the
date upon which Rondeau allegedly killed Adolf. Appellant’s App. Vol. 2, p.
94. Thus, according to Rondeau, the trial court “render[ed] a void judgment.”
Id. On July 10, 2017, the post-conviction court denied Rondeau’s Motion to
Vacate Void Judgment. Rondeau did not appeal the denial of his motion.

[4]

On July 20, 2017, Rondeau filed a Petition for Writ of Habeas
Corpus (“Writ”) in the Madison Circuit Court. In his Writ,
Rondeau claimed that “the pretended cause” of his restraint is
murder and that the restraint “is illegal” because the Marion
Superior Court did not have subject matter jurisdiction of his case

Court of Appeals of Indiana | Memorandum Decision 19A-CR-299 | December 19, 2019

Page 4 of 10

(o

-DoaSSign Envelope ID: D4056CF9-7C5A-445B-8302-63846E81A86B

because, he claims, Adolf “died in 2008 in Germany.”2 He
assert[ed]:
Indiana courts do not have subject matter jurisdiction
over German citizens that died in Germany in 2008,
and therefore, there is no statutory or common law
authority for the court to hear the case concerning [the
murder charge]. There was no crime committed in
Indiana in 2009, like the [State] alleges, as the Petitioner
cannot kill someone in 2009, that was already dead,
according to his own government since 2008.
The [State] has not shown proof that “Adolf Stegbauer”
was alive after 2008, or that he was in the United States
at the time of the alleged murder in 2009, or that a
person named “Adolf Stegbauer” ever even existed at
the time of the alleged crime. The [State] has never met
it’s burden of proof giving Indiana courts subject matter
jurisdiction to hear a case concerning anyone named
“Adolf Stegbauer.”
Rondeau contend [ed] in his Writ that the conviction was “void”
from its inception, “a complete nullity and without legal effect,”
and that, therefore, he is entitled to immediate release.
On August 18, 2018, Zatecky[, the Superintendent of the
Pendleton Correctional Facility,] filed a motion to transfer
Rondeau’s Writ to the Marion Superior Court, which was the
court that convicted and sentenced him. Zatecky’s motion
maintained that the Madison Circuit Court did not have

2 Rondeau d[id] not include any documentary evidence in support of his assertion that his greatuncle Adolf Stegbauer died in Germany in 2008, nor d[id] he indicate when or how he learned
of the alleged death.
Rondeau, No. 48A02-1709-MI-2348, slip op. at 2 n.2.

Court of Appeals of Indiana | Memorandum Decision 19A-CR-299 | December 19,2019

Page 5 of 10

1

DoctiSign Envelope ID: D4Q56CF9-7C5A-445B-8302-63846E81A86B

jurisdiction over Rondeau’s Writ because Rondeau was
challenging the validity of his conviction, which pursuant to
Indiana Post-Conviction Rule l(l)(c), must be transferred to the
convicting court, here, Marion County Superior Court Criminal
Division 1. On September 1, 2017, the Madison Circuit Court
issued its order granting Zatecky’s motion to transfer, ordering
that:
this action be TRANSFERRED to the Marion County
Superior Court Criminal Division 1, cause number
49G01-0904-MR-038670, because the petitioner is
seeking to attack the validity of his conviction, which he
cannot do in this court. Miller v. Lowrance, 629 N.E.2d
846 (Ind. 1994).
Rondeau, No. 48A02-1709-MI-2348, slip op. at 2 (internal citations to the
appendix Rondeau filed in the case are omitted).
[5]

Rondeau appealed, and on June 26, 2018, we issued our memorandum
decision, concluding that Rondeau’s writ “challenged the validity of his
conviction and sentence,” thus “the Madison Circuit Court properly transferred
it to the Marion Superior Court, where Rondeau was convicted and sentenced.”
Id. at 3. In footnote 3, we noted the following regarding the premise of
Rondeau’s claim that the trial court did not have subject matter jurisdiction
over his case:
While we do not reach the merits of Rondeau’s claim that the
judgment was void—because Adolf purportedly was already
deceased, and Rondeau could not have murdered him—we note
that it does not appear from the record before us, nor does he
allege, that he filed a motion to dismiss the murder charge on the
basis that Adolf was not the person he stabbed in a sword fight
on April 9, 2009. Accordingly, Rondeau may have waived any
Court of Appeals of Indiana | Memorandum Decision 19A-CR-299 | December 19, 2019

Page 6 of 10

B

qociiSign Envelope ID: D4056CF9-7C5A-445B-8302-63846E81A86B

argument that Adolf was not the person he stabbed, which is the
premise of his claim that the trial court did not have subject
matter jurisdiction over his case.
Id. n3.
[6]

On March 19, 2018, Rondeau filed a petition requesting permission from this
Court to seek successive post-conviction relief. He sought relief on grounds that
the trial court lacked subject matter jurisdiction over his case, which “caus[ed]
the [trial] court to render a void judgment” because the “German citizen [that
Rondeau was accused of murdering] was declared to be officially and legally
dead by his own government, the Federal Republic of Germany, in 2008.”
Petition for Permission to File Successive Verified Petition for Post-Conviction
Relief at 2, Rondeau v. State, No. 18A-SP-714 (filed in Ind. Ct. App. Mar. 19,
2018). On May 29, 2018, we issued an order declining to authorize the filing of
the successive petition, finding that Rondeau failed to establish a reasonable
possibility that he was entitled to post-conviction relief.

[7]

On November 7, 2018, Rondeau filed in the post-conviction court a motion to
dismiss. In his motion, he again alleged that the trial court lacked subject
matter jurisdiction over his murder trial. Rondeau argued that Adolf Stegbauer,
the “State’s alleged murder victim[,] was already legally dead at the time of the
alleged April 2009 murder, so there is no cause to charge [Rondeau] with a
crime[,]” and, “[w]ithout a crime[,] there was no jurisdiction to hear the case.”
Appellant’s App. Vol. 2, p. 121. That same day, the post-conviction court
denied Rondeau’s motion. Rondeau now appeals.
Court of Appeals of Indiana | Memorandum Decision 19A-CR-299 | December 19, 2019

Page 7 of 10

Doc’uSignEnt/elope ID: D4056CF9-7C5A-445B-8302-63846E81A86B

[8]

Rondeau contends that the post-conviction court erred in denying his motion to
dismiss. He maintains that the trial court lacked subject matter jurisdiction over
his murder trial and, therefore, rendered a void judgment. Rondeau’s
contention, however, is of no moment because his motion to dismiss
constituted an unauthorized successive petition for post-conviction relief, which
the post-conviction court lacked jurisdiction to consider.

[9]

The Indiana Rules of Appellate Procedure create procedures by which persons
who have been convicted of crimes in Indiana may appeal those convictions.
Bellamy v. State, 765 N.E.2d 520 (Ind. 2002). If unsuccessful on appeal, there
are procedures in place that allow the convicted person an opportunity to file a
petition seeking post-conviction relief. Id.; see Ind. Post-Conviction Rule 1. If
still unsuccessful, one of the avenues potentially open to the convicted person is
to again seek post-conviction relief through a successive petition. Bellamy, 765
N.E.2d 520; see Ind. Post-Conviction Rule 1(12).

[10]

Pursuant to Post-Conviction Rule 1(12), convicted persons filing successive
petitions for post-conviction relief are required to obtain leave from either the
Indiana Supreme Court or this Court before filing a successive petition in the
post-conviction court. Young v. State, 888 N.E.2d 1255 (Ind. 2008). If a
convicted person files a successive petition in the post-conviction court without
obtaining such leave, the post-conviction court is required to dismiss the
petition due to lack of jurisdiction. See Beech v. State, 702 N.E.2d 1132, 1134
(Ind. Ct. App. 1998) (“the trial court erred when it entertained jurisdiction over
[an improper successive petition]”); see Young, 888 N.E.2d at 1257 (affirming
Court of Appeals of Indiana | Memorandum Decision 19A-CR-299 | December 19,2019

Page 8 of 10

l*

DocOSign.Envelope ID: D4056CF9-7C5A-445B-8302-63846E81A86B

the dismissal of an improper successive petition); see also Azania v. State, 738
N.E.2d 248, 250 (Ind. 2000) (“[I]t was procedurally improper to file the petition
without authorization from this Court. .. . The [trial court] is therefore directed
to dismiss the [PCR petition].”).
[li]

Rondeau has previously sought post-conviction relief. He first filed a petition
for post-conviction relief in October 2011, which was denied in April 2015. The
denial was affirmed on appeal. In July 2017, Rondeau filed in the post­
conviction court a Motion to Vacate Void Judgment, raising the lack-of-subjectmatter-jurisdiction argument. The post-conviction court denied the motion.
He subsequently sought to file a successive post-conviction petition on grounds
that the trial court lacked subject matter jurisdiction over his murder trial and,
therefore, the court’s judgment was void because Adolf purportedly was already
deceased, and Rondeau could not have murdered him. We declined to
authorize the filing of his successive post-conviction petition.

[12]

Rondeau’s motion to dismiss, filed on November 7, 2018, was yet another try
for post-conviction relief and an attempt to circumvent the rules for seeking
successive post-conviction relief. His motion to dismiss amounted to an
improperly filed successive petition for post-conviction relief—without
permission from this court in accordance with Indiana Post-Conviction Rule
1(12). Thus, the post-conviction court lacked jurisdiction to entertain the
motion. We, therefore, remand this matter to the post-conviction court with
instructions to vacate its judgment denying Rondeau’s motion to dismiss and to
enter an order dismissing the motion.
Court of Appeals of Indiana | Memorandum Decision 19A-CR-299 | December 19, 2019

Page 9 of 10

u

DoctiSign Envelope ID: D4056CF9-7C5A-445B-8302-63846E81A86B

[13]

Remanded with instructions.
Kirsch, J., and Bradford, J., concur.

Court of Appeals of Indiana | Memorandum Decision 19A-CR-299 | December 19, 2019

Page 10 of 10

/2_

Appe^c^W.

FIL
IK

IN THE

SUPERIOR COURT OF MARION COUNT
STATE OF INDIANA
CHRISTOPHER RONDEAU,

)
)
)
)
)
)
)
)
)

Petitioner,
v.
STATE OF INDIANA,
Respondent.

NOV 07 2018

Cause No. 49G01-0904-PC-038670

DENIED
November 7, 2018

MOTION TO DISMISS
Comes now the Petitioner, Christopher Rondeau, Pro se, pursuant to
Indiana code § 35-34-l-4(b), and Indiana rules of trial procedure 60(B)(6), and
files this motion to dismiss. In support of this motion the Petitioner asserts the
following:
In May of 2010, the Petitioner was convicted for the crime of murder

1.

and subsequently sentenced for a term of 55 years in prison.
The alleged murder took place in Indianapolis, Indiana in April of

2.

2009, and the alleged murder victim was Adolf Stegbauer, a citizen of the
Federal Republic of Germany.
At the time the alleged murder was supposed to have taken place,

3.

Adolf Stegbauer was already legally dead. The government of the Federal
Republic of Germany had declared Adolf Stegbauer to be legally dead in
2008.

Page11

13

The 2008 declaration of death of Adolf Stegbauer made by the

4.

German government is a presumption of fact made by the German
government, not the Petitioner.
The Petitioner in no way represents or speaks for, the German

5.

government, nor does the Petitioner answer for the legal decisions made
by that government concerning that government’s citizens. The Petitioner
can only repeat to this court what he and his family were told by a
representative of the Federal Republic of Germany via telephone in 2008.
The Petitioner and his family were informed via telephone in 2008

6.

that Adolf Stegbauer had been declared to be legally dead, and that his
government checks had been stopped. The Petitioner and his family
contacted Adolf Stegbauer’s bank in Germany in 2008, and they
confirmed that the German government had declared him to be legally
dead and froze his bank accounts.
The Petitioner is incarcerated and has no way of getting physical

7.

proof such as a death certificate of Adolf Stegbauer from the German
government1 because the Petitioner has no internet connection to contact
the appropriate office in the German State of Bavaria where Adolf
Stegbauer used to reside, and even if the Petitioner could, IDOC policy
prohibits the Petitioner from receiving in the mail certificates of any kind.

1 Petitioner did contact the German consulate in Chicago and the German embassy in Washington D.C. and they
stated that the German offices abroad do not have any information on German birth, marriage or death certificates,
and that that stuff is handled by local State offices in Germany. They did not offer the Petitioner any addresses to
write to.

Page|2

H

Regardless, the presumption of fact made in 2008 by the German

8.

government that Adolf Stegbauer was deceased is still relevant to this
case.
The effect of this presumption of fact made by the German

9.

government about Adolf Stegbauer being dead since 2008, is that it
places the burden upon the Respondent of establishing the nonexistence of that fact.
Since the Respondent has not at any time bothered to

10.

establish the non-existence of the fact that Adolf Stegbauer was already
legally dead at the time of the alleged April 2009 murder, the Petitioner
has been wrongfully charged, convicted and confined since the 2010
trial.
11.

State’s alleged murder victim was already legally dead at the time
of the alleged April 2009 murder, so there is no cause to charge the
Petitioner with a crime. Without a crime there was no jurisdiction to hear
the case.
The burden is again on the Respondent to demonstrate that the

12.

court had subject matter jurisdiction over the matter of the alleged .
murder of Adolf Stegbauer, who was already legally dead at the time of
the alleged murder, and unless the Respondent can establish the non­
existence of the fact that Adolf Stegbauer was already legally dead at the
time of the alleged April 2009 murder, then the Petitioner could not have
been charged with violating any Indiana common law or Statute.
Page|3

>r

Subject matter can never be presumed, never be waived, and

13.

cannot be construed even by mutual consent of the parties, and proof of
subject matter must appear on the record of the court. Subject matter
jurisdiction is two part: the statutory or common law authority for the
court to hear the case and the appearance and testimony of a competent
fact witness, in other words sufficiency of the pleadings. Since Adolf
Stegbauer was already legally dead at the time of the alleged murder, and
the Respondent never at any time established the non-existence of that
fact, there was no statutory or common law authority for the court to
hear the case.
Lack of subject matter jurisdiction will render any judgment made

14.

by that court void. When courts lack subject matter jurisdiction, their
actions are void ab initio and may be attacked at any time. Kondauri v.
Kondamuri, 799 N.E.2d 1153, 1156 (Ind. Ct. App. 2003). A motion to
dismiss based on lack of jurisdiction over subject matter may be made at
any time under Indiana code § 35-34-l-4(b), a void judgment can be
attacked or vacated at any time and there is no statute of limitation
according to Indiana rules of trial procedure 60(B)(6). A void judgment is a
legal nullity and therefore can be overturned at any time under Person v.
Person, 563 N.E. 2d 161, 163 (Ind. Ct. App. 1990).
15.

Petitioner would like to point out to the court that the Respondent
did not at any time before or during the Petitioner’s 2010 trial establish
the non-existence of that fact that Adolf Stegbauer was already legally

Page | 4

!<o

dead at the time of the alleged April 2009 murder. As a matter of fact the
Respondent never at ay time entered into evidence any formal
identification2 of any kind from Adolf Stegbauer to establish that he was
not only alive, but also in the United States in April of 2009.
16.

Petitioner would also remind the court that Adolf Stegbauer was a
citizen of the Federal Republic of Germany that lived in the German State
of Bavaria and that he was not a citizen of the United States nor was he
at any time a legal alien living in the United States, and that the last time
that he was issued a visitation visa by the United States was in
November of 2002.

Wherefore, the Petitioner now asks that this honorable court to dismiss the
Petitioner’s murder charge and/or to vacate the judgment against the
petitioner and for all other just and proper relief.
Respectfully submitted on this 19th day of October, 2018.

Petitioner, Pro se

2 Positive I.D. such as a valid passport or visa, or fingerprint/ DNA evidence that matched the German governments
to positively I.D. Adof Stegbauer.

Page | 5

n

CERTIFICATE OF SERVICE
I, the undersigned, hereby certify that on this 22* day of October, 2018,1 served a true
and correct copy of the above and foregoing motion to dismiss upon:
Terry R. Curry
Marion County Prosecutor’s Office
251 E. Ohio st. suite 160
Indianapolis, In 46204
properly addressed and with sufficient first-class postage affixed, by depositing same with
correctional staff for placement in the U.S. Mail, which constitutes filing per the Indiana
“mailbox rule.” Dowell v. State, 922 N.E.2d 605 (Ind. 2010).

(signature) /

Petitioner / Pro se
IDOC# 198058
Pendleton Correctional Facility
4490 W. Reformatory Road
Pendleton, Indiana. 46064-9001

Page|6

jgpi ©8a
i?

c

3n tfje

Snbtana Supreme Court
Christopher Rondeau,
Appellants),

Court of Appeals Case No.
19A-CR-00299
Trial Court Case No.
49G01-0904-PC-38670

V.

FILED
Apr 07 2020, 1:16 pm

CLERK

State Of Indiana,
Appellee(s).

Indiana Supreme Court
^ Court of Appeals a
and Tax Court

Order
This matter has come before the Indiana Supreme Court on a petition to transfer
jurisdiction, filed pursuant to Indiana Appellate Rules 56(B) and 57, following the issuance of a
decision by the Court of Appeals. The Court has reviewed the decision of the Court of Appeals,
and the submitted record on appeal, all briefs filed in the Court of Appeals, and all materials
filed in connection with the request to transfer jurisdiction have been made available to the
Court for review. Each participating member has had the opportunity to voice that Justice’s
views on the case in conference with the other Justices, and each participating member of the
Court has voted on the petition.
Being duly advised, the Court DENIES the petition to transfer.
Done at Indianapolis, Indiana, on 4/7/2020

Loretta H. Rush
Chief Justice of Indiana
All Justices concur.

Apper^ t>
IN THE

COURT OF APPEALS OF INDIANA
Christopher Rondeau,
\

I

Appellant,
v.

State of Indiana,
Appellee.

Court of Appeals Cause No.
19A-CR-299

:
!

FILED
Feb 05 2020, 1:52 pm

CLERK

Indiana Supreme Court
t Court of Appeals j
and Tax Court S

Order
[1]

Appellant, pro se, has filed a Petition for Rehearing.

[2]

Having reviewed the matter, the Court finds and orders as follows:
Appellant’s Petition for Rehearing is denied.

[3]

Ordered

2/5/2020

Bradford, C.J., Kirsch, J., Friedlander, Sr.J., concur.
For the Court,

UlHl
Chief Judge

Page 1 of 1

Zo

IN THE

COURT OF APPEALS OF INDIANA
Christopher Rondeau,
Petitioner,
Court of Appeals Cause No.
18A-SP-714

v.

State of Indiana,

FILED

Respondent.

May 29 2018, 4:00 pm

CLERK

Indiana Supreme Court
. Court of Appeals .
W and Tax Court ^

Order
[1]

Petitioner, pro se, has filed a Successive Petition for Post-Conviction Relief.

[2]

Having reviewed the matter, the Court finds and orders as follows:
1. The Petitioner has failed to establish a reasonable possibility that he is
entitled to post-conviction relief, and accordingly, the Court declines to
authorize the filing of the Petition.
2. The Clerk of this Court is directed to send a copy of this order to the
Petitioner and to the Marion Circuit and Superior Courts Clerk.
3. The Marion Circuit and Superior Courts Clerk is directed to file a copy
of this order under Cause Number 49G01-0904-PC-38670, and, pursuant
to Indiana Trial Rule 77(D), the Clerk shall place the contents of this
order in the Record of Judgments and Orders.

[3]

Ordered

5/29/2018

Najam, J., Barteau, Rucker, Sr.JJ., concur.
For the Court,
Ttfaruof. /-jarris yCidJh.

Chief Judge

Page 1 of 1

Zl

